February 1, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Mail Entry Unit Oversight Reviews –Charlotte, NC
         (Report Number FF-MA-11-018)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Business Mail
Entry Unit (BMEU), Charlotte, NC (Project Number 11BR004FF007), performed
December 1-2, 2010. The Charlotte BMEU is in the Mid-Carolinas District of the Capital
Metro Area. At the conclusion of FY 2011, we will summarize the results for all reviews
in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC properly conducted
and documented their examination of SOX financial reporting controls.




                                   Restricted Information
Fiscal Year 2011 Financial Testing Compliance – Business                                            FF-MA-11-018
 Mail Entry Unit Oversight Review – Charlotte, NC


To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from December 2010 through
February 2011 in accordance with the Quality Standards for Inspections.1

Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls. See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the FY, the OIG will summarize the results of all its FTC
oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management agreed not to respond to the interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Johnson K. John, manager, at
703-248-4695, or me at 724-584-5630.

      E-Signed by Kevin Ellenberger
    VERIFY authenticity with ApproveIt
       Tuesday, 01 February, 2011



Kevin H. Ellenberger
Director, Field Financial –East

Attachment

cc:       Douglas G. Germer
          Corporate Audit and Response Management




1
 These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of
1978 as amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and
Efficiency (CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not
been amended to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        2
                                             Restricted Information
    Fiscal Year 2011 Financial Testing Compliance – Business                                 FF-MA-11-018
     Mail Entry Unit Oversight Review – Charlotte, NC


                                                     APPENDIX A: REVIEW RESULTS

                      Site Name                                               Charlotte BMEU
                      Finance Number-Unit ID                                  3613920021
                      Location Type                                           BMA
                      Scope Period Under Review                               10/1/10 thru 11/30/10
                      FTC Review Program Version and Date                     11/24/10
                      FTC Team                                                East


                                                                                                                               Did the OIG
                                                                                                                Did FTC         agree with
                                                                              Did the OIG        Did FTC       adequately          FTC’s
                                                                                  have         perform the    document its     exceptions/
                                                          Did FTC have        exceptions/         step in         work       findings (or no
                                                           exceptions/       findings that   accordance to   performed and     exceptions/
   FTC Review               FTC Review Step/             findings in this    FTC did not?     its program?    the results?      findings)?
  Step/Control #            Step Description             step? (Yes/No)         (Yes/No)         (Yes/No)       (Yes/No)         (Yes/No)
450001/104CA63       Mail check- In /receipt                   No                 No              Yes            Yes              Yes
450002 / 104CA2      Mail verification                         No                 No              Yes            Yes              Yes
450003/104CA65       Placarding/induction                      No                 No              Yes            Yes              Yes
450004/104CA66       End-of-day reconciliation                 No                 No              Yes            Yes              Yes
450005 /
                     SOX certification                         No                 No              Yes            Yes              Yes
104CA06
                     Finalizing postage
450006 /104CA1                                                 No                 No              Yes            Yes              Yes
                     statements




                                                                          3
                                                               Restricted Information
